Report No. D-2008-080           April 25, 2008




          DoD Accounting to Support
         DoD Personnel During Times of
               Civil Emergency
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AO                    Authorizing Official
DMD                   Data Mining Division
FEMA                  Federal Emergency Management Agency
IG                    Inspector General
QMD                   Quantitative Methods Division
SSN                   Social Security Number
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                                             April 25, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (PERSONNEL AND
                 READINESS)

SUBJECT: Report on DoD Accounting to Support DoD Personnel During Times of
         Civil Emergency (Report No. D-2008-080)


      We are providing this report for review and comments. The Under Secretary of
Defense (Personnel and Readiness) did not respond to the draft report.

      DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that the Under Secretary of Defense (Personnel and Readiness) provide
comments on Recommendations by May 27,2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Lorin T. Pfeil at (703) 601-5945 (DSN 329-5945) or Ms. Pauletta P. Battle at
(703) 601-5900 (DSN 329-5900). See Appendix D for the report distribution. The team
members are listed inside the back cover.



                                           o~t~~(/~~()~
                                        Patricia A. Marsh, CPA
                                      Assistant Inspector General
                                 for Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-080                                                      April 25, 2008
   (Project No. D2006-D000FE-0104.000)

       DoD Accounting to Support DoD Personnel During Times of
                           Civil Emergency

                                 Executive Summary

Who Should Read This Report and Why? DoD financial managers and personnel
responsible for the accounting and reporting of reimbursement to support DoD military
and civilian personnel during a civil emergency should read this report. This report
addresses the adequacy of controls in place to ensure the accuracy of payments to DoD
personnel.

Background. On August 29, 2005, Hurricane Katrina made landfall on the U.S. Gulf
Coast causing major damage and loss of life in Alabama, Louisiana, and Mississippi.
The President declared the affected locations disaster areas and several Federal agencies,
including DoD and the Federal Emergency Management Agency (FEMA), responded to
the call for support. DoD evacuated DoD personnel (military and civilian employees and
their dependents) to alternate safe haven locations. DoD made advance travel payments
to personnel to expedite evacuation efforts. DoD assisted personnel with expenses such
as meals, transportation, lodging, and incidental expenses. FEMA also provided
assistance to DoD personnel for expenses such as rent, housing, personal property losses,
and other expenses as authorized by law.

Results. DoD did not have adequate controls to ensure the accuracy of payments to DoD
personnel for Hurricane Katrina entitlements. Specifically, DoD did not have adequate
controls to prevent or detect duplicate payments from the Services and FEMA for similar
entitlements. This occurred because neither DoD nor Federal regulations prohibited DoD
personnel from filing claims with multiple Federal agencies, and DoD did not require
disclosure of payments from other Federal agencies. In addition, the Services did not
coordinate with each other or FEMA to determine the types of assistance provided or
amounts paid to DoD personnel. DoD also did not require disclosure of payments from
the Services or FEMA, and personnel did not always comply with DoD travel
regulations. Therefore, personnel were able to file claims and receive payments from
more than one Service and FEMA, resulting in DoD making duplicate payments of about
27.1 percent, or $10.7 million, for Hurricane Katrina entitlements (see Appendix B for
sampling methodology). Revising pre-payment and post-payment procedures to include
requirements for coordinating across Services and with other Federal agencies should
decrease the potential for duplicate payments.

Management Comments. We provided a draft of this report on January 30, 2008. The
Under Secretary of Defense for Personnel and Readiness did not provide comments to the
draft report. We request that the Under Secretary of Defense for Personnel and
Readiness comment on this report by May 27, 2008.
Table of Contents

Executive Summary                                                     i

Background                                                           1

Objectives                                                           1

Review of Internal Controls                                          1

Finding
     Controls for Payments to Support DoD Personnel During a Civil
          Emergency                                                  3

Appendixes
     A.   Scope and Methodology                                      11
     B.   Sampling Methodology                                       12
     C.   Prior Coverage                                             13
     D.   Report Distribution                                        14
Background
     On August 29, 2005, Hurricane Katrina made landfall on the U.S. Gulf Coast
     causing major damage and loss of life in Alabama, Louisiana, and Mississippi.
     The President declared the affected locations disaster areas, and several Federal
     agencies, including DoD and the Federal Emergency Management Agency
     (FEMA), responded to the call for support. DoD evacuated DoD personnel
     (military and civilian employees and their dependents) to alternate safe haven
     locations. DoD made advance travel payments to personnel to expedite
     evacuation efforts. DoD assisted personnel with expenses such as meals,
     transportation, lodging, and incidental expenses. FEMA also provided assistance
     to DoD personnel for expenses such as rent, housing, personal property losses,
     and other expenses as authorized by law.

     This audit was performed in support of Public Law 109-62, “Second Emergency
     Supplemental Appropriations Act to Meet Immediate Needs Arising from the
     Consequences of Hurricane Katrina, 2005,” September 8, 2005. This law requires
     the Inspector General, Department of Homeland Security, to audit and investigate
     funds expended on Hurricane Katrina response and recovery activities.
     Additionally, the House Government Reform Committee and its Subcommittee on
     Financial Management (now the Subcommittee on Government Management,
     Finance, and Accountability) issued a letter to the Secretary of Homeland
     Security on September 15, 2005. This letter tasked the Secretary to coordinate
     with the DoD Office of Inspector General to increase its auditing and
     investigative capabilities to ensure that the funds were used for their intended
     purposes.


Objectives
     The overall audit objective was to determine whether controls were in place to
     ensure the accuracy of payments to DoD personnel during a civil emergency.
     Specifically, to determine whether DoD personnel evacuated during a civil
     emergency received duplicate payments from DoD and other Federal agencies for
     the same entitlements. We also reviewed the adequacy of the management
     control program as it relates to the overall objective. See Appendix A for a
     discussion of the scope and methodology and Appendix C for prior coverage.

Review of Internal Controls
     We identified material internal control weaknesses as defined by DoD
     Instruction 5010.40, “Management Control (MC) Program Procedures,”
     January 4, 2006. DoD did not have adequate controls to prevent or detect
     duplicate payments for Hurricane Katrina entitlements. Specifically, DoD
     regulations do not identify or restrict the type of assistance personnel can claim
     from other Federal agencies or require personnel to disclose payments from other
     Federal agencies. In addition, the Services had no visibility of payments that the



                                          1
other Services or FEMA made to military and civilian personnel. Implementing
Recommendations 1.a., 1.b., 1.c., and 2 will improve DoD’s ability to prevent and
detect duplicate payments for the same entitlements. A copy of the final report
will be provided to the senior officials responsible for internal controls at the
respective Commands.




                                    2
                  Controls for Payments to Support DoD
                  Personnel During a Civil Emergency
                  DoD did not have adequate controls to ensure the accuracy of payments to
                  DoD personnel for Hurricane Katrina entitlements. Specifically, DoD did
                  not have adequate controls to prevent or detect duplicate payments from
                  across the Services and FEMA for similar entitlements. This occurred
                  because neither DoD nor Federal regulations prohibited DoD personnel
                  from filing claims with multiple Federal agencies. In addition, the
                  Services did not coordinate with each other or FEMA to determine the
                  types of assistance provided or amounts paid to DoD personnel. DoD also
                  did not require disclosure of payments from the Services or FEMA and
                  personnel did not always comply with DoD travel regulations. Therefore,
                  personnel were able to file claims and receive payments from more than
                  one Service and FEMA, resulting in DoD making duplicate payments of
                  about 27.1 percent, or $10.7 million, * for Hurricane Katrina entitlements.

Internal Controls Over Payments
          Controls for Service Claims. DoD did not have adequate controls to prevent or
          detect duplicate payments across the Services. The Services had no visibility of
          payments made by other Service branches. Specifically, the Services did not
          coordinate with each other and did not require personnel to disclose payments
          personnel received outside of their branch. Some personnel received evacuation
          orders and advance payments from more than one Service. As a result, personnel
          filed claims with and received subsequent payments from more than one Service.
          Personnel also did not always comply with DoD travel regulations. DoD
          personnel’s travel claims were not properly completed and, at times, were
          processed without signatures of approving officials and required receipts.

          Controls for FEMA Claims. DoD did not have adequate controls to detect
          duplicate payments from FEMA for the same entitlements. Although DoD
          provided assistance to its personnel as a result of Hurricane Katrina, DoD and
          Federal regulations did not prohibit DoD personnel from receiving FEMA
          assistance. In addition, DoD did not coordinate with FEMA to determine the type
          and amount of assistance FEMA provided. DoD also did not require personnel to
          disclose payments received from FEMA. Thus, DoD personnel filed claims with
          both DoD and FEMA for expenses such as lodging, transportation, and moving
          and storage.

                  Pre- and Post-Payment Procedures. The Services performed pre- and
          post-payment verification procedures. In general, pre-payment procedures
          included verifying members’ (military and civilian personnel and their
          dependents) identity, using checklists to process vouchers, and checking the
          respective travel systems for prior payments on travel orders. Post-payment
          procedures included performing audits and reviews of travel payments based on

*
    See Appendix B for sampling methodology.



                                               3
    each Service’s criteria. However, no Service had pre- or post-payment
    procedures that required checking for payments that personnel may have received
    from other Services or FEMA.


DoD and Federal Regulations
    DoD and Federal regulations did not prohibit DoD personnel from filing claims
    with other Federal agencies as a result of a civil emergency. DoD regulations,
    such as the Joint Travel Regulation, Joint Federal Travel Regulation, and the DoD
    Financial Management Regulation, provided detailed guidance on travel
    operations during a civil emergency, but did not prohibit DoD personnel from
    filing claims with other Federal agencies. Instead, the Joint Travel Regulation
    and the DoD Financial Management Regulation provided guidance on how to
    fund evacuations for personnel from other organizations. The Joint Federal
    Travel Regulation did not provide guidance on how to fund evacuations for
    personnel from other organizations.

    Joint Travel Regulation. The Joint Travel Regulation, Appendix I,
    Section 550.403 states:

                  Any DoD Component may make payments in an evacuation
                  situation to an employee of another Federal agency/DoD
                  component (or the employee’s dependent(s) or personal
                  representative) who has received an order to evacuate. When
                  a payment is made under this part by a DoD component other
                  than the employee's agency/DoD component, the DoD
                  component making the payment shall immediately report the
                  amount and date of the payment to the employee's
                  agency/DoD component so that prompt reimbursement may
                  be made.

    DoD Financial Management Regulation. The DoD Financial Management
    Regulation, volume 9, chapter 5, “Temporary Duty Travel (TDY)-Non-Defense
    Travel System,” March 2006, states that, whenever possible, all orders should be
    funded by the traveler’s organization. If funding is provided by another office,
    the traveler’s organization should obtain the fund cite from that office in the
    amount sufficient to pay for the travel before issuing travel orders.

    Federal regulations, such as the Military Personnel and Civilian Employees’
    Claims Act, codified as section 3721, title 31, United States Code
    (31 U.S.C. 3721), and the Code of Federal Regulations (C.F.R.) authorize an
    agency, like FEMA, to make payments to employees of other Federal agencies.

    Military Personnel and Civilian Employees’ Claims Act. According to
    31 U.S.C. 3721, the head of an agency may settle and pay up to $40,000 for
    personal property damage or loss claims made by a member of the uniformed
    services, incident to service. If the claim arose from an emergency evacuation or
    from extraordinary circumstances, the settlement amount may exceed $40,000,
    but is limited to $100,000.



                                          4
    Code of Federal Regulations. According to 5 C.F.R. Section 550.403 (2006), an
    agency can make payments due to an evacuation to an employee of another
    Federal agency who has received an order to evacuate. Under these
    circumstances, the agency making the payment must immediately report the
    amount and date of payment to the employee's agency to be promptly reimbursed.

    Also, according to 44 C.F.R. Section 206.191, if assistance from the agency with
    primary responsibility will be delayed, other agencies may provide assistance, but
    this assistance “must be recovered from the applicant when the other assistance
    becomes available.”

    Because none of these regulations prohibited filing similar claims with multiple
    Federal agencies, DoD personnel filed claims for assistance from more than one
    Service and FEMA. The duplicate claims went undetected and resulted in
    duplicate payments. For example, a Marine Corps member filed a claim with the
    Marine Corps for lodging from August 27, 2005, to September 28, 2005, for
    $1,214, and for October’s rent for $2,425. In the same time frame, the member
    claimed FEMA housing assistance that was approved September 9, 2005, for
    $2,000 and rental assistance approved October 1, 2005, for $2,358. Because the
    member received FEMA assistance for similar entitlements in September and
    October, the Marine Corps should not have paid for lodging and rent for those
    months.

    DoD should update regulations to prohibit DoD personnel from claiming similar
    types of assistance with both DoD and FEMA. Updating the regulations to
    prohibit the filing of similar claims with multiple agencies helps prevent duplicate
    payments for the same entitlements.


Coordination within DoD and with FEMA
    The Joint Travel Regulation, DoD Financial Management Regulation, and Code
    of Federal Regulations require that a Service, which makes payments to personnel
    from other Services, notify the other Services of the amounts and dates of the
    payments so that the Service making the payment can be reimbursed. However,
    the Services did not coordinate with each other or with FEMA to determine the
    types of assistance provided or amounts paid to DoD personnel. In addition, there
    was limited communication between DoD and FEMA. DoD and FEMA
    communicated regarding which entitlements were available to DoD personnel,
    but did not communicate about preventing or rectifying duplicate entitlements
    paid to DoD personnel.

    DoD Coordination Among the Services. The Services issued multiple travel
    orders and advances that resulted in duplicate payments to DoD personnel for the
    same entitlements. We reviewed travel records for 56 social security numbers
    (SSN) in which DoD personnel received travel orders from multiple Services.
    For 7 of the 56 SSNs, DoD personnel submitted travel vouchers covering the
    same time period to more than one Service. The seven SSNs with multiple travel
    orders resulted in $28,806 in duplicate payments. For example, a Navy member
    residing in Slidell, Louisiana, received a travel order from the Commander, Navy
    Installations and a travel order from the Commander, Keesler Air Force Base.


                                         5
The member submitted a travel voucher to the Navy for travel from August 28,
2005, to October 9, 2005, and a travel voucher to the Air Force for travel from
August 28, 2005, to September 30, 2005. Both the Navy and the Air Force paid
the member based on the member’s travel order for the respective Service and the
member’s receipts. We identified similar results for all seven SSNs.

Thus, DoD paid these seven members twice. These duplicate payments are
included in the Service 2 and Service 3 sample results in Table 1.

Although the personnel for the remaining 49 SSNs did not file multiple vouchers,
17 received advance or prior payments from more than one Service. We did not
consider these payments duplicates because the Services performed debt
collection procedures to recoup the funds. Debt collection was a routine part of
the Services post-payment procedures. Services should coordinate with each
other and establish or update pre-payment and post-payment procedures to notify
other Services of payments made to their respective personnel and seek
reimbursement of those funds as required by the Joint Travel Regulation.

DoD Coordination with FEMA. Coordination between DoD and FEMA is
required by 44 C.F.R. Section 206.191(b)(1) which states that Federal agencies
must “cooperate to prevent and rectify duplication of benefits.” In October 2005,
DoD and FEMA developed a “Recovery Information Sheet” that provided
information on benefits available to evacuated DoD personnel. The “Recovery
Information Sheet” stated that “Military assistance and FEMA assistance may be
considered as a duplication of benefits.” Although FEMA and DoD recognized
the potential for duplication of benefits, the “Recovery Information Sheet” lacked
provisions or procedures on how to prevent, detect, or rectify duplicate payments.
Thus, DoD had no knowledge of FEMA payments made to DoD personnel for
evacuation assistance. For example, an Army member and his dependents filed
for assistance with the Army and FEMA. The Army paid for 5 months of rent,
totaling $3,750. During the same 5-month period, two of the dependents, who
were over 18 years old and living in the same household as the member, received
rental and housing assistance from FEMA totaling, $9,338. Because FEMA paid
for housing and rental needs, DoD did not need to reimburse lodging costs. In
addition, FEMA should not have paid one of the dependents because both were
part of the same household.

Sample of FEMA and DoD Payments. We reviewed FEMA payment data for
the 2005 Hurricane season and the Services’ travel records related to Hurricane
Katrina to determine duplicate payments to DoD personnel. FEMA payment data
identified 64,824 SSNs belonging to DoD personnel for which FEMA provided
$298 million in assistance. We compared the SSNs in FEMA payment data to the
SSNs of DoD personnel in the Services travel records. Our analysis identified
14,446 DoD personnel SSNs that were in both FEMA payment data and the
Services travel records. Based on the potential for duplicate payments, we
developed a statistical sample to review and analyze payment data and travel
records for 687 SSNs. Of the 687 SSNs, travel records were available for only
610 SSNs. Travel records for the remaining 77 SSNs were missing or pertained
to payments for hurricanes other than Katrina. The 610 SSNs includes the
56 SSNs that received multiple travel orders. The following table shows travel



                                    6
    records for 225 SSNs that we reviewed and identified totaling over $600,000 in
    multiple payments. The amounts in Table 1 include the seven SSNs previously
    identified as duplicate payments.



                 Table 1. Sample Results for DoD Duplicate Payments
                                      Travel
                                     Records                   DoD Duplicate
    Service           Sample Size   Reviewed      Duplicates     Payments
                                                                (thousands)
    Army               150               101                  25                    $   67,213
    Navy               150               150                  48                       182,161
    Air Force          150               128                  25                        23,387
    Marine Corps       150               150                  88                       234,168
    Service 21          60                57                  24                        72,848
    Service 32          27                27                  15                        48,894
    Total              687               610                 225                     $ 628,6713
    1
      Includes individuals from all the Services whose SSN appeared in the sample twice.
    2
      Includes individuals from all the Services whose SSN appeared in the sample three times and
    was associated with more than one Service.
    3
      Based on the statistical sample results, the projected total dollar error is $10.7 million.


    We determined duplicate payments by the type of assistance and the date of the
    assistance provided by more than one Service or by FEMA plus at least one
    Service. The Services could have avoided paying or could have recovered
    duplicate payment amounts if the Services coordinated with each other and
    FEMA. To prevent or minimize duplicate payments in the future, DoD should
    coordinate with FEMA to establish pre- and post-payment procedures to detect
    duplicate payments by determining the type, amount, and timing of FEMA
    assistance provided to DoD personnel during a civil emergency.

Payment Disclosure
    Disclosure of FEMA Payments. DoD did not require disclosure of payments
    received from FEMA. DoD regulations required that when filing a claim “each
    evacuee shall be asked about advances or previous payments.” Advances or
    previous payments should be reported in block nine of the DoD travel voucher,
    DD Form 1351-2, titled “Previous Government Payments/Advances.” However,
    amounts in block nine were limited to advances or previous payments from DoD
    for specific travel orders and did not include payments from other Federal
    agencies. For example, an Army member received a $3,450 advance payment
    and $344 lodging reimbursement from the Army for travel from August 27, 2005,
    to September 27, 2005. The member also received $6,094 for lodging
    reimbursement from FEMA for the same time period. However, the member’s
    DD Form 1351-2, block nine showed only the $3,450 advance and the $344
    lodging reimbursement from the Army. Thus, because the amounts in block nine


                                               7
    only applied to advance or prior payments for DoD travel orders, DoD was not
    aware of payments received from FEMA and made payments for similar
    entitlements. DoD should require personnel to disclose the type and amount of
    payments received from other Federal agencies to prevent duplicate payments for
    the same benefits.

    Payment Disclosure Within and Across Services. DoD personnel also did not
    always include advances or prior payments from other Service branches on their
    travel vouchers. For example, an Army dependent received $8,281 in accruals
    from the Navy. However, the dependent did not include this amount on the
    DD Forms 1351-2, block nine, filed with the Army. In addition, DoD personnel
    did not consistently include previous DoD payments or advances they received
    from their own Service branch on their travel vouchers. For example, a Marine
    Corps member’s travel voucher summary prepared by the disbursing officer
    totaled $14,074 in advances and prior payments from the Marine Corps.
    However, on the DD Form 1351-2, prepared by the member, block nine was
    blank. DoD should require that personnel disclose advances and prior payments
    received from their Service and other Service branches to prevent and detect
    duplicate payments.


Compliance with Travel Regulations
    Voucher Approval Process. The Services did not always comply with DoD
    travel regulations for processing travel claims. According to the DoD Financial
    Management Regulation, volume 9, chapter 5, if required by the DoD Component
    the Approving Official (AO) must sign the travel voucher before submission to
    the appropriate travel computation office for reimbursement. However, in an
    effort to streamline the delivery of assistance, the Office of Management and
    Budget authorized Federal agencies to relax pre-payment eligibility verification
    requirements, such as requiring an AO signature, for the first 30 to 90 days after
    August 29, 2005. The Office of Management and Budget guidance stated that
    after 30 to 90 days (November 30, 2005), agencies “should resume standard pre-
    payment procedures and controls to the maximum extent possible.” Thus, travel
    vouchers processed after November 30, 2005, except for the Navy’s, required an
    AO signature. Of the 610 travel records we reviewed, 54 travel records contained
    one or more travel vouchers that were processed without the AO signature after
    November 30, 2005. For example, a Marine Corps member was reimbursed
    expenses on five partial vouchers and the final two vouchers did not have the AO
    signature. An Army dependent was also reimbursed on three partial vouchers
    without an AO signature.

    Required Documentation. The Services did not always have the proper
    documentation to support disbursements. The Joint Travel Regulation and DoD
    Financial Management Regulation require the Services to review travel
    documentation that supports amounts reimbursed to personnel. Out of the
    610 records reviewed, 80 did not have receipts to support the amounts
    reimbursed. For example, a Navy member was reimbursed lodging costs of
    $12,606 without receipts. In addition, the Services sometimes had travel voucher
    summaries



                                        8
    indicating payments were made to individuals but did not have the travel orders,
    travel vouchers, or other supporting documentation. Table 2 shows by Service
    the results of SSNs without the AO signatures and required documentation.



                 Table 2. Sample Results Required Documentation
                                                           Without
                        Travel Records    Without AO      Required
     Service               Reviewed        Signature   Documentation
     Army                101                      34                  10
     Navy                150                       6                  14
     Air Force           128                       1                  23
     Marine Corps        146                       2                  20
     Service 21           58                       6                   8
     Service 32           27                       5                   5
     Total               610                      54                  80
     1
       Includes individuals from all the Services whose SSNs appeared in the sample twice.
     2
       Includes individuals from all the Services whose SSNs appeared in the sample three
     times and was associated with more than one Service.


    The Services need to comply with DoD travel regulations requiring an AO
    signature, receipts, and other documentation when processing travel claims.


Recommendations
    1. We recommend that the Under Secretary of Defense for Personnel and
    Readiness require the Services to:

            a. Update regulations prohibiting DoD personnel from claiming similar
    entitlements with DoD and other Federal agencies and to check for previous
    claims filed within DoD and with other Federal agencies.

           b. Coordinate with each other to establish or update pre-payment and post-
    payment procedures that notify each Service of payments made to their respective
    personnel and to recoup duplicate payments.

            c. Develop and implement pre-payment and post-payment procedures that
    require coordination with Federal Emergency Management Agency and other
    Federal agencies to determine the type, amount, and time frame of assistance
    provided to DoD personnel during a civil emergency.

           d. Comply with travel regulations requiring an approving official’s
    signature on travel vouchers, receipts, and other supporting documentation when
    processing travel claims.




                                              9
    2. We recommend the Under Secretary of Defense for Personnel and Readiness
    update the Joint Travel Regulation and the Joint Federal Travel Regulation to
    require that DoD personnel disclose all payments received from other Federal
    agencies and all Services as a result of a civil emergency, and to require
    adjustments to entitlements based on payments received from other Federal
    agencies and Services.


Management Comments Required
    The Office of the Under Secretary of Defense for Personnel and Readiness did not
    comment on a draft of this report. We request that the Office of the Under
    Secretary of Defense for Personnel and Readiness provide comments on the final
    report.




                                       10
Appendix A. Scope and Methodology
We performed this financial audit from January 3, 2006, through January 8, 2008,
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We performed our audit at the Military Services, two DoD Components, and
FEMA. We interviewed personnel working in the areas of travel pay, customer
support, and policy. We visited and conducted interviews at the Defense Finance
and Accounting Service Indianapolis, and the Personnel Support Activity at
Naval Station Norfolk, to obtain travel vouchers and supporting documents for
payments made to DoD personnel as a result of Hurricane Katrina evacuations.
We also requested documentation regarding travel payments from the Air Force
and Marine Corps through a data call. We requested Defense Eligibility
Enrollment System data on DoD personnel in areas affected by Hurricane Katrina
from the Defense Manpower Data Center and payment data from FEMA for
payments made to DoD personnel as a result of Hurricane Katrina. We developed
a statistical sample of 687 SSNs. However, travel records for 77 SSNs were
missing or pertained to payments for hurricanes other than Katrina. For the
remaining 610 SSNs, we analyzed travel orders, travel vouchers, travel voucher
summaries, and other payment data to determine duplicate payments.

Use of Computer-Processed Data. We relied on computer-processed data from
several databases including DEERS, the Defense Finance and Accounting Service
Document Retrieval System, Windows Integrated Automated Travel System,
Electronic Document Access Systems, Reserve Travel System, and FEMA
database. We did not evaluate the general and application controls for these
systems. We compared the data from each system to applicable hard copy source
documents to determine the accuracy and reliability of computer-processed data.
Not performing the general and application controls of the systems did not affect
the results and conclusions of our review.

Use of Technical Assistance. We received technical assistance from the Data
Mining Division (DMD) and the Quantitative Methods Division (QMD). DMD
auditors assessed the reliability of the data received from the Defense Manpower
Data Center and formatted the data from the Services to a useable form. DMD
combined both data sources and assisted in organizing FEMA data. QMD
statisticians coordinated with DMD to develop the sample of SSNs from the
universe. See Appendix B for sampling methodology.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Financial Management high-risk area.




                                    11
Appendix B. Sampling Methodology
We provided QMD population data in Excel files named AF_FEMA.XLS,
Army_FEMA.XLS, Marines_FEMA.XLS, Navy_Dep_FEMA.XLS,
Navy_Spon_FEMA.XLS. The files contained data that included the members
SSN, dollar amount of eligible entitlement, and which Service made the payment.
QMD developed a stratified sample design based on Service and multiple
payments. The initial population consisted of 14,446 records, of which 1,909
were duplicates and 27 were triplicates resulting in 12,483 unique records. The
first stratum consisted of instances where three multiple payment (3's sample
[census]) were made to members; the second stratum consisted of instances where
two payments (2's multiple [census]) were made to members from more than one
Service; the third stratum consisted of instances where two entitlements were
paid within the same Service; the fourth through seventh strata were by Service
(Army, Air Force, Marine and Navy) and consisted of instances where one
entitlement was paid within the same Service. By using Excel 2003, QMD
randomized within each stratum and selected the sample items by simple random
selection without replacement.

                                  Sample Design

                   Strata     Sample     Population Population        Sample
 Strata            No.        Size       Size       Dollars           Dollars
                                                    (thousands)       (thousands)
 3 sample          1           27            27      $ 567,593        $ 567,593
 2 multiple        2           29           29           440,190           440,190
 2 N sample        3           31         1,880       19,286,888         1,144,710
 Army              4          150         3,356       18,071,589         1,488,476
 Air Force         5          150         2,974       15,649,738         1,487,325
 Marine            6          150         1,080        5,077,366         1,386,133
 Navy              7          150         3,137       15,830,940         1,472,934
 Total                        687        12,483      $74,924,304       $ 7,987,361

Statistical Analysis and Interpretation. Based on the audit results provided to
QMD analysts by the audit team, QMD calculated the statistical projection for the
dollar error. At a 95-percent confidence level the dollar error is between
$8.1 million and $13.3 million with a point estimate of $10.7 million. In addition,
QMD calculated the statistical projections for the total number of errors and error
rate. At a 95-percent confidence level the total errors are between 2,736 and
3,815 with a point estimate of 3,388 and QMD is 95 percent confident that the
error rate is between 21.9 and 30.6 percent with a point estimate of 27.1 percent.




                                    12
Appendix C. Prior Coverage
      During the past 5 years, the GAO, DoD IG, and the Naval Audit Services have
      issued reports discussing Hurricane Katrina relief efforts. Unrestricted GAO
      reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
      DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
      Unrestricted Navy report can be accessed at http://www.hq.navy.mil/NavalAudit.


GAO
      GAO Report No. 06-655 “Expedited Assistance for Victims of Hurricanes
      Katrina and Rita: FEMA’s Control Weaknesses Exposed the Government to
      Significant Fraud and Abuse,” June 16, 2006

      GAO Report No. 06-844T “Hurricanes Katrina and Rita Disaster Relief: Improper
      and Potentially Fraudulent Individual Assistance Payments Estimated to Be
      Between $600 Million and $1.4 Billion,” June 14, 2006

      GAO Report No. GAO-06-643, “Better Plans and Exercises Needed to Guide the
      Military’s Response to Catastrophic Natural Disasters,” May 2006

      GAO Report No. 06-403T “Expedited Assistance for Victims of Hurricanes
      Katrina and Rita: FEMA’s Control Weaknesses Exposed the Government to
      Significant Fraud and Abuse,” February 13, 2006


DoD IG
      DoD IG Report No. D-2007-121, “Emergency Supplemental Appropriations for
      DoD Needs Arising From Hurricane Katrina at Selected DoD Components,”
      September 12, 2007

      DoD IG Report No. D-2007-081, “Financial Management of Hurricane Katrina
      Relief Efforts at the U.S. Army Corps of Engineers,” April 6, 2007

      DoD IG Report No. D-2006-118, “Financial Management of Hurricane Katrina
      Relief Efforts at Selected DoD Components,” September 27, 2006

Naval Audit Services
      Naval Audit Service Report No. N2006-0047, “Cash Accountability of
      Department of the Navy Disbursing Officers for Hurricane Katrina Relief Funds,”
      September 22, 2006




                                        13
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Inspector General, Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Inspector General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform



                                          14
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Patricia A. Marsh
Lorin T. Pfeil
Pauletta P. Battle
Shanika LeGare
Deloris G. Luddington
Marcus A. Jaramillo
Gabriel Negron-Pumares
Timothy D. Peoples
Suellen Foth
James Hartman
Lusk F. Penn
Erin S. Hart
